Top10ManagementChal
                  lenges
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM   Page 3




                                 MAJOR CHALLENGES
                                FOR THE DEPARTMENT
              This section highlights the Top 10 Management                Challenge 1
              Challenges that faced the Department at the close of
              this semiannual period. Each challenge meets one or          Control the Cost and
              more of the following criteria: (1) it is important to
              the Department’s mission or the nation’s well-being,
                                                                           Improve the Accuracy
              (2) it is complex, (3) it involves sizable resources         of the Decennial Census
              or expenditures, or (4) it requires significant
              management improvements. Because of the diverse              The Census Bureau’s redesigned decennial plan,
              nature of Commerce activities, these criteria                established after the 2000 census, is heavily
              sometimes cut across bureau and program lines.               dependent on automating critical field operations
              Experience has shown that by aggressively addressing         to accurately count the nation’s population
              these challenges, the Department can enhance                 within budget. After conducting a series of tests
              program efficiency and effectiveness; eliminate              throughout the decade, the bureau has begun a
              serious operational problems; decrease fraud, waste,         “dress rehearsal” or dry run of the upcoming 2010
              and abuse; and achieve substantial savings.                  census, which will produce an unofficial count for
                                                                           two sites: San Joaquin County, California, and eight
                                                                           counties surrounding Fayetteville, North Carolina.
                TOP 10 MANAGEMENT CHALLENGES                               The local census office for each site opened in
                                                                           April 2007.
                 1. Control the cost and improve the accuracy
                    of the decennial census.                               During the past year, we monitored various aspects
                 2. Strengthen Department-wide information                 of the bureau’s decennial operations: we com-
                    security.                                              pleted our evaluation of the 2006 test of
                                                                           update/enumerate at the Cheyenne River
                 3. Effectively manage departmental and bureau             Reservation and conducted a follow-up review of
                    acquisition processes.                                 the bureau’s progress in readying its workers’
                 4. Strengthen internal controls over financial,           compensation program for the 2010 decennial (see
                    programmatic, and business processes.                  pages 25 and 29). We also have initiated two
                 5. Ensure that USPTO uses its authorities and             reviews of the 2008 dress rehearsal, one assessing
                    flexibilities as a performance-based                   the effectiveness of address canvassing procedures
                    organization to achieve better results.                in improving the accuracy of the address list and
                                                                           maps, and the other evaluating the capabilities and
                 6. Effectively manage the development and
                                                                           performance of the technology that supports this
                    acquisition of environmental satellites.
                                                                           operation. And we are auditing two multimillion-
                 7. Promote U.S. exports and fair competition              dollar contracts: Field Data Automation Collection
                    in international trade.                                (FDCA) and the Decennial Response Integration
                 8. Effectively manage NOAA’s stewardship of               System (DRIS), which are being used to acquire IT
                    ocean and living marine resources.                     devices and services that are critical to the success
                 9. Aggressively monitor emergency preparedness,           of the reengineered census.
                    safety, and security responsibilities.
                10. Enhance export controls for dual-use
                    commodities.



                                                                       3
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 4




              Major Challenges for the Department                                           September 2007—Semiannual Report to Congress




              Counting American Indians                                       Improving the Workers’ Compensation
              on Reservations                                                 Program at Census
              Counting American Indians living on reservations                                                In our March 2006
              such as the one selected for the 2006 test of                                                   Semiannual Report (page 39-
              update/enumerate can be challenging because these                                               41), we discussed the results
              sites often contain many unnamed streets and                                                    of our review of Commerce’s
              unnumbered houses and encompass large, rural areas                                              workers’ compensation pro-
              punctuated by small communities. In addition,                                                   gram,2 which included recom-
              multiple families often share a single housing unit,                                            mendations that the Census
              and getting an accurate count of the entire household                                           Bureau and the Department
              is difficult. In update/enumerate census-takers go                                              develop a comprehensive
              door to door to collect population information and                                              workers’ compensation pro-
              update address lists and maps. We evaluated the test’s                                          gram for the 2008 dress
              conduct and outcomes, particularly with regard to                                               rehearsal and the 2010
              the impact of a new query on the census form                                                    decennial. The bureau paid
              designed to improve the count of all household                                                  almost $14.2 million in
              members (“within-household coverage”). We looked                                                workers’ compensation bene-
              at the success of the overall operation in accurately                                           fits during the 2000 census
              enumerating the reservation population.                           www.census.gov/2010census/dx- and continues to pay
                                                                                            261-cafinalnr.pdf
                                                                                                              millions of dollars to
              Overall, we found the new query had little impact on                                            decennial workers still on the
              reservation enumerations. We also found many                    rolls. The unique nature of intermittent work at
              problems caused by the poor quality of Census maps              Census complicates administration of the program,
              and address list information collected during the               so we urged the bureau and the Department to
              address canvassing operation, which preceded                    develop a strategy to contain these costs for the
              update/enumerate, and Census’s decision not to                  upcoming decennial.
              equip enumerators with GPS navigation tools in this
              geographically challenging environment. Given that              During this semiannual period we assessed the
              Census did little to test alternative enumeration               bureau’s progress in implementing our 2006
              methods, we question whether the bureau devoted                 recommendations for developing a program,
              adequate time and attention to the 2006 effort.                 identifying ways to contain related costs for the 2008
                                                                              dress rehearsal and 2010 decennial operations,
              With the countdown to the 2010 census accelerating,             returning current claimants to work, when feasible,
              the bureau’s time for modifying plans and ensuring              and implementing training and other management
              an accurate, cost-effect count of all Americans is              controls and oversight to minimize unnecessary
              growing short. We recommended that Census, at the               workers’ compensation costs.
              very least, give enumerators usable, legible maps and
              sufficiently detailed address lists on a consistent basis       We found the bureau had yet to implement a strategy
              and consider giving enumerators a GPS device for                for returning current claimants to work or for
              navigation—either the handheld computer slated for              managing a workers’ compensation program tailored
              Census 2010 or an inexpensive off-the-shelf model.              specifically to the staffing challenges posed by
              This latter step would go a long way toward                     decennial operations. Census officials have recently
              improving the accuracy and efficiency of                        advised us they’ve taken preliminary steps to return
              update/enumerate. We further recommended                        some claimants to work and have reached internal
              assigning a senior headquarters official specific               agreement on a regionally based return-to-work
              responsibility for improving 2010 American Indian
              enumeration efforts. (See page 25.)                             2
                                                                                  Management of Commerce’s Federal Workers’ Compensation
                                                                                  Program Needs Significant Improvement, IPE-17536



                                                                          4
DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page 5




              September 2007—Semiannual Report to Congress                                         Major Challenges for the Department



              program and an integrated program strategy. The                 Challenge 2
              bureau must now work with the Department’s
              human resources office and with Labor Department                Strengthen Department-Wide
              officials to finalize and implement its strategy. It must
              also identify the resources needed to handle the
                                                                              Information Security
              anticipated caseload of workers injured during 2010
              decennial operations. (See page 29.)                            The continuing expansion of information technology
                                                                              means federal agencies face ever-increasing challenges
                                                                              in performing their missions while providing for the
                                                                              security of their sensitive information. Since
              Assessing the 2008 Address
                                                                              enactment of FISMA in 2002, agencies have spent
              Canvassing Dress Rehearsal                                      millions of dollars to improve the security of
                                                                              information on their computer systems and shared
              The dress rehearsal is a final opportunity to ensure            via the Internet. Yet weaknesses persist and breaches
              that decennial components work together as planned.             continue. At the Department of Commerce, IT
              We are currently evaluating the address canvassing              security has been reported as a material weakness
              portion of dress rehearsal, which took place from               under the Federal Managers Financial Integrity Act
              May through June 2007.                                          since 2001.

              During address canvassing, temporary staff equipped             The system security certification process is supposed
              with handheld computers go into the field to verify,            to provide officials with complete, accurate, and
              update, add, or remove addresses; add and delete                trustworthy information on a system’s security status
              streets to correct computer maps; and annotate                  so they can make timely, credible, risk-based
              address locations on the maps. The operation                    decisions on whether to authorize operation. Our
              produces an updated, comprehensive file of addresses            reviews of the Department’s certification and
              and physical locations where people live or stay. We            accreditation (C&A) packages continue to find a
              are assessing whether fieldworkers consistently                 process that does not adequately identify and assess
              followed procedures and made appropriate                        needed security controls. As a result, authorizing
              corrections on the handheld computer, and whether
              the redesigned quality control component improved
              the quality of the address list.                                           Why Is C&A Important?
                                                                               Certification is a comprehensive assessment of
              In a separate review, we are looking at the technology           security controls implemented in a computer
              supporting the operation. Our observations thus far              system. It determines whether controls are
              suggest that key automation capabilities have greatly            implemented correctly, operating as intended,
              improved since the 2004 and 2006 site tests. But we              and meeting the security requirements for the
              observed other problems. For example, handheld                   system. Through the formal assessment of
              computer functions frequently froze, processing of               controls, the system certifier identifies any
              large address lists was slow, and help desk support for          vulnerabilities that have not been eliminated by
              resolving users’ computer problems was inadequate.               security controls.
              The bureau and its FDCA contractor are aware of
              these problems and are working to resolve them. We               Accreditation is management’s formal authori-
              will detail our findings and recommendations in the              zation to allow a system to operate. It includes an
              next semiannual report.                                          explicit acceptance of the risks posed by any
                                                                               identified remaining vulnerabilities. Through
                                                                               accreditation, senior agency officials take
                                                                               responsibility for the security of systems they
                                                                               manage and for any adverse impacts should a
                                                                               breach in security occur.




                                                                          5
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 6




              Major Challenges for the Department                                       September 2007—Semiannual Report to Congress



              officials do not have the information they need to             certification agents and the authorizing official
              make sound accreditation decisions.                            without adequate information about remaining
                                                                             vulnerabilities. (See page 45.) Therefore, we also
              Beginning in FY 2005, Commerce’s Office of the                 recommended that USPTO, which submits its
              Chief Information Officer (OCIO) instituted a                  performance and accountability report separately,
              quality assurance process that involved reviewing              again report IT security as a material weakness.
              C&A packages for agency (as opposed to contractor)
              systems, working with the bureaus to eliminate noted           Senior management officials in the Department and
              deficiencies, and forwarding to OIG packages                   USPTO are keenly aware and supportive of the need
              considered acceptable for FISMA review. For FY                 for improving the IT security program. The
              2007, we received packages for eight agency systems            Department CIO has placed a great deal of emphasis
              reviewed by OCIO as of our cutoff date in early June.          on improving C&A and is taking significant actions
                                                                             to improve the process. Likewise, USPTO’s CIO has
                                                                             devoted considerable personal attention and
              FY 2007 FISMA Review                                           resources to improving C&A. These efforts
                                                                             demonstrate a high level of commitment;
              We looked at a total of six C&A packages—three of              unfortunately, their benefits have yet to translate into
              which had been reviewed by OCIO in FY 2007; one                C&A processes that consistently produce packages
              reviewed in FY 2006 but sent to us late in the fiscal          showing adequate implementation of the required
              year; and two contractor systems, which had not                baseline level of security for the Department’s more
              undergone OCIO’s quality review. We assessed all               than 300 IT systems.
              components of each package and met with agency
              and contractor staff to discuss apparent omissions or
              clarify discrepancies in the documentation and gain            Lost Laptops Prompt Assessment of IT
              further insight into the extent of the security controls       Security at Census
              assessment. We gave particular weight in our review
              to evidence supporting the rigor and completeness of           The widely publicized loss of hundreds of Census
              the assessment.                                                laptops between 2001 and 2006 prompted our office,
                                                                             at the request of Secretary Gutierrez, to assess the
              We concluded that only two of the six packages                 bureau’s IT security controls for protecting personally
              adequately complied with FISMA, OMB policy,                    identifiable information, along with the bureau’s
              NIST guidelines, and agency IT security policy. Both           property management policies and practices (see page
              were for agency systems. But we noted continued                21). Our assessment of the security controls focused
              improvement in security plans for all the systems,             on the laptop computers used by about 5,500 Census
              particularly in the identification of system                   field representatives to conduct censuses and surveys
              components. We also found improvement in the                   prior to implementation of full disk encryption. We
              assessment of security controls in the two compliant           found that personally identifiable information could
              systems. However, the remaining four systems had               be recovered from Census’s lost or stolen laptops
              serious deficiencies in their controls assessment,             using software tools available on the Internet. Given
              particularly in the testing of operational and technical       how the laptops are used in the field, it is likely that
              controls. (See pages 30, 31, and 41.) That being the           some were not encrypted when lost or stolen, leaving
              case, we again recommended IT security be reported             confidential information readily accessible. Our
              as a material weakness within Commerce.                        report identifies additional IT security weaknesses
                                                                             that further increase risk to personally identifiable
              Two USPTO packages were included in our review                 information.
              sample—one for an agency system and one for a
              contractor system. Both lacked sufficient evidence to          Census has taken significant steps to improve IT
              confirm that operational and technical controls are in         security and better protect its sensitive information,
              place and operating as intended, leaving the                   and has been extremely responsive in correcting the


                                                                         6
DOC OIG SAR 11-07.qxd   11/27/07   1:36 PM    Page 7




              September 2007—Semiannual Report to Congress                                                 Major Challenges for the Department



              IT security weaknesses we identified. However, in an                   funding contracts, preparing and maintaining cost
              era of increasing IT security requirements and highly                  estimates, performing effective market research,
              constrained resources, the bureau faces considerable                   ensuring full and open competition whenever
              challenges in carrying out its IT security program.                    possible, using earned value management to measure
                                                                                     progress, establishing effective award fee plans, and
              The Department has also taken several significant                      selecting the appropriate contract types.
              steps to secure personally identifiable information: it
              required that all Commerce laptops be fully                            Continuity and consistency in acquisition
              encrypted during FY 2007 and selected a product for                    management and oversight are essential to ensuring
              implementing two-factor authentication, which uses                     the government timely and cost-effectively gets what
              a randomly generated pass code, along with the user’s                  it pays for especially when making complex and
              password, to control access to Commerce networks                       costly acquisitions. With that in mind, Commerce
              from remote locations. In addition, it established an                  must ensure that high turnover in upper
              Identity Theft Task Force of senior officials to ensure                management and other key acquisition positions at
              rapid, appropriate response to actual or potential                     the Department and several of its agencies does not
              data breaches involving personally identifiable                        affect the quality of the procurement process.
              information.
                                                                                     In addition, the Department has had a difficult time
                                                                                     achieving discipline in the acquisition process over
                                                                                     the past few years. Senior management must take a
              Challenge 3                                                            serious look at the planning and execution processes
                                                                                     for procurements and ensure agencies have the ability
              Effectively Manage Departmental                                        to promptly hire and adequately train qualified
                                                                                     acquisition staff.
              and Bureau Acquisition Processes
              Commerce spends nearly $2 billion a year to procure
                                                                                     OIG’s Efforts to Improve Contracting
              goods and services so management and oversight of
              the processes used must be superior. Past OIG audits                   Oversight
              and evaluations have identified improvements the
              Department needs to implement to fortify the                           In FY 2006, OIG established a contract audits
              acquisition process. These include documenting                         division to oversee Commerce’s acquisition activities.
              program needs, validating requirements, fully                          The division will monitor the Department’s most
                                                                                     significant procurements on a continuing basis and
                                                                                     conduct audits of those contracts as appropriate. The
                                                                                     contract audits team will also scrutinize the
                                                                                     Department’s revision of departmental and bureau
                                                                                     procurement policies to ensure they mirror current
                                                                                     federal acquisition regulations and Office of
                                                                                     Management and Budget circulars. In its reports, the
                                                                                     team will recommend best practices and innovative
                                                                                     approaches the Department should adopt.

                                                                                     The contract audits division’s initial area of emphasis
                                                                                     has been the Census Bureau’s procurement of
                                                                                     products and services to support the 2010 decennial
                                                                                     census. In April 2007, we began the first of a series of
                                                       http://oam.ocs.doc.gov/       audits of the FDCA and DRIS contracts. FDCA is
                                                                                     an effort to automate field data collection and
                                                                                     provide logistics, training, and help desk support for


                                                                                 7
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 8




              Major Challenges for the Department                                      September 2007—Semiannual Report to Congress



              12 regional centers, more than 450 local census                tasks performed to maintain and repair data buoys
              offices, and up to 500,000 field staff who will                and other observation platforms for marine weather
              conduct the decennial census. DRIS is intended to              forecasting. We expect to issue a report on this review
              standardize and integrate data collected via paper             during the next semiannual period.
              census forms, handheld computers, telephone
              interviews, and other methods. These two contracts
              have a combined value of $1.1 billion, representing
              about 9.5 percent of the $11.5 billion in total                Challenge 4
              estimated costs for the 2010 decennial census. The
              first audit of these contracts will determine whether          Strengthen Internal Controls over
              (1) the prime contractors’ data deliverables were on
              time and of acceptable quality, (2) the contracting
                                                                             Financial, Programmatic, and
              officers can promptly adjust the contract cost                 Business Processes
              estimate to account for changes in cost and schedule,
              and (3) both contracts contain effective award fee             To ensure operations are effective, efficient, and in
              plans. In future audits, we will review the contractors’       compliance with laws and regulations, agencies
              costs for equipment and materials, their management            implement internal controls. These steps also make
              of subcontractors, and contactor surveillance.                 certain that financial reporting is reliable and assets
                                                                             are safeguarded from waste, loss, or misap-
              In addition to its audit of the FDCA and DRIS                  propriation.
              contract, the contract audits division is currently
              monitoring several high-profile contracts within the           In the years since passage of the 1990 Chief Financial
              Department, including the $200 million 2010                    Officers Act, Commerce has been working to fix
              Census Communications Campaign contract. In                    financial management problems, including
              anticipation of conducting an audit, we are                    overhauling accounting practices and consolidating
              evaluating the bureau’s contract administration,               several financial systems into one. The result has been
              focusing on whether the contractor charges                     a more integrated system designed to give agency
              appropriate labor rates and submits status reports on          managers current, accurate information.
              costs and its progress against the program’s schedule.
              In June 2007, division staff met with the contracting
              officer for that procurement to informally review the
              processes the bureau used to solicit proposals and
              make the award.
                                                                                                                http://home.commerce.gov/ofm/



              National Data Buoy Center                                      In FY 2006, agencies began implementing new
                                                                             internal accounting controls required by OMB’s
              OIG is also examining a large contract administered            revised Circular A-123, and since FY 2004 they have
              by the National Data Buoy Center, a part of the                had to issue audited financial statements within
              National Weather Service that designs, develops,               45 days of the fiscal year’s close. Commerce has
              operates, and maintains a network of data-collecting           met this deadline each year since 2004, and has
              ocean buoys and coastal stations. In 2005, the center          continued to receive a clean opinion on its
              awarded a 5-year contract with potential for five 1-           consolidated statements.
              year extensions worth up to $500 million for
              technical services support for its marine observation          However, despite positive efforts made by the
              network. Currently, an OIG inspection team is                  Department, the FY 2006 financial statement audit
              reviewing the contract’s structure and management              found that continued improvements are needed in its
              by the National Oceanic and Atmospheric                        IT general control environment. Commerce also
              Administration, including oversight of the associated          needs to ensure that the internal controls for programs


                                                                         8
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 9




              September 2007—Semiannual Report to Congress                                          Major Challenges for the Department



              and business practices provide reasonable assurance              Evaluating Program and Accountable
              that operations are effective and efficient and are
                                                                               Property Controls
              consistent with applicable laws and regulations.
                                                                               Because the design and implementation of program
                                                                               and property controls can significantly impact the
              Establishing a Blueprint for Sound                               effectiveness of departmental operations, these
              Management of New NTIA Programs                                  areas are an important focus of our audit and inspec-
                                                                               tion work.
              The Digital Television Transition and Public Safety
              Act of 2005 requires the Federal Communications                  Our recent audit of EDA’s revolving loan fund pro-
              Commission to auction recovered analog spectrum                  gram revealed weak agency oversight, persistent
              and deposit the proceeds into a special fund. A por-             problems, and millions in funds to be put to better
              tion of the proceeds will be used to fund several new            use. EDA management responded with an action
              programs within the National Telecommunications                  plan that assigns responsibility of the program to a
              and Information Administration (NTIA). Under the                 single individual who can be held accountable for its
              act, NTIA, one of the Department’s smaller agencies,             operations, lays out a time frame with specific mile-
              is slated to manage up to nine new programs, two of              stones addressing known problems as well as
              which have potential combined budgets totaling                   establishing performance metrics that will allow sen-
              $2.5 billion (a grant program for public safety inter-           ior management to better monitor the program.
              operable communications and a converter box                      Since the report was issued, EDA has partnered with
              coupon program).                                                 OIG to provide single audit training for EDA staff
                                                                               involved in the management of revolving loan funds.
              Successfully implementing these new programs is a
                                                                               During this semiannual period, we completed an
              significant management challenge for the
                                                                               audit of the Census Bureau’s accountable property
              Department. We are sharing our expertise with
                                                                               management policies and practices. We found the
              NTIA to help it design strong, well-structured pro-
                                                                               bureau had made considerable progress in correcting
              grams that minimize the opportunities for fraud.
                                                                               weaknesses by implementing initiatives directed by
              During this period, we presented information on fed-
                                                                               Commerce and on its own but still needs to make
              eral audit requirements, cost principles, and
                                                                               further improvements. (See page 23.)
              matching share requirements at a June NTIA public
              meeting and at September workshops for the
                                                                               We recently initiated a review of accountable person-
              56 states and territories receiving more than
                                                                               able property at USPTO. We plan to issue a report of
              $968 million in grants to improve interoperable com-
                                                                               our findings during the next semiannual period.
              munications of public safety agencies, including fire
              and police departments and emergency medical
              teams. In addition, Congress has enacted a new
              statute requiring OIG to conduct an annual assess-
              ment of the management of the public safety                      Challenge 5
              interoperable communications program and to con-
              duct financial audits over the next 4 years of a
                                                                               Ensure that USPTO Uses Its
              representative sample of at least 25 states or territories       Authorities and Flexibilities as a
              receiving the public safety grants.
                                                                               Performance-Based Organization
              In August 2007, NTIA awarded a contract to IBM                   to Achieve Better Results
              for digital-to-analog converter box coupon program
              services. In the next semiannual period we plan to               Since the Patent and Trademark Office Efficiency Act
              review the contract and develop audit plans to help us           transformed USPTO into a performance-based
              evaluate the implementation of this program.                     organization over 7 years ago, OIG has devoted sig-


                                                                           9
DOC OIG SAR 11-07.qxd     11/27/07      1:36 PM      Page 10




              Major Challenges for the Department                                                  September 2007—Semiannual Report to Congress



              nificant resources to oversight of the agency. We have                    mise of sensitive patent information. Thus, we
              issued nearly a dozen reports examining USPTO pro-                        have initiated an audit of accountable property at
              gram, operational, and administrative issues.                             the agency.

                                                                                        The long-standing and growing backlog highlights
                                                                                        other issues for USPTO and OIG attention: the need
                                                                                        to expedite a fully electronic patent examination
                                                                                        process and to carefully monitor the agency’s billion-
                                                                                        dollar investment in high-risk time and materials and
                                                                                        award fee contracts for related information technolo-
                                                                                        gy services. OIG may conduct reviews of selected
                                                                                        USPTO contracts to ensure vendors are complying
                                                                                        with contract terms and conditions, containing costs,
                                                                         USPTO
              USPTO Director Jon Dudas and Secretary of Commerce Carlos
                                                                                        and delivering the required services on time.
              Gutierrez (back row) look on as Dean Harts of 3M, April Sauders-
              Fuller of Fish & Richardson, and Felicia Metz of the University of        Clearly, recruitment, attrition, and information tech-
              Maryland (front row) file patent documents electronically at the          nology remain serious challenges for the agency. We
              March 16, 2006, launch of EFS-Web USPTO’s new electronic
                                                                                        will continue to monitor USPTO’s progress in those
              filing system.
                                                                                        areas as well as its training programs and human
                                                                                        resources or personnel operations, where we earlier
              While USPTO plays a critical role in promoting the                        found some questionable practices and the need for
              nation’s technological progress and protecting intel-                     improved management controls. We also plan to con-
              lectual property rights, its task is often viewed as                      duct follow-up work on the agency’s new overseas
              daunting given the increasing number and complexi-                        attaché program and some of its other initiatives,
              ty of patent applications. The agency’s 21st Century                      such as the new patent peer review process.
              Strategic Plan, issued in 2002 and later revised, out-
              lined numerous initiatives to help reduce its large
              backlog of applications, ensure the quality of granted
              patents, and improve the productivity of its examin-                      Challenge 6
              er corps. An earlier OIG report on USPTO’s patent
              examiner production goals, performance appraisal                          Effectively Manage the
              plans, and awards highlighted actions that the agency
              could take to stimulate and reward examiner produc-
                                                                                        Development and Acquisition of
              tion. A recent GAO report on USPTO’s recruitment                          Environmental Satellites
              and retention efforts also called on agency managers
              to reassess examiner production goals, but noted that                     NOAA is in the midst of a major overhaul of its envi-
              examiners often cited those goals as a primary reason                     ronmental monitoring capabilities, spending several
              for leaving the agency. GAO also reported that attri-                     billion dollars on contracts for the purchase, con-
              tion is continuing to offset USPTO’s hiring progress                      struction, and modernization of satellite systems that
              even with the use of many incentives and flexibilities                    collect data to produce short- and long-range weath-
              to retain the workforce for longer periods.                               er forecasts and a variety of other critical information.
                                                                                        Satellite programs are highly complex and risky, and
              One of those workplace incentives has been                                they historically have been plagued by substantial
              USPTO’s expansion of its telework program, allow-                         cost increases and schedule delays. They are also
              ing examiners to use laptops to work at offsite                           extremely important to public safety and defense
              locations. Lost laptops and data security problems at                     operations, and therefore have been a continuing
              other Commerce bureaus underscore the need for                            focus of our work.
              strong policies, procedures, and controls at USPTO
              to avoid similar problems and the potential compro-



                                                                                   10
DOC OIG SAR 11-07.qxd     11/27/07       1:36 PM        Page 11




              September 2007—Semiannual Report to Congress                                                                         Major Challenges for the Department




              Acquiring Geostationary                                                                for GOES-R that omits key features of accepted satel-
                                                                                                     lite acquisition management practices. And we
              Weather Satellites
                                                                                                     concluded these omissions had negative impacts on
                                                                                                     the program. We made recommendations to
              In the next decade, GOES-R will replace the existing
                                                                                                     Commerce and NOAA to help bring GOES-R over-
              GOES satellites. The new series will offer an uninter-
                                                                                                     sight and management practices in line with those
              rupted flow of high-quality data to support weather
                                                                                                     used by NASA and the Department of Defense in
              forecasting, severe storm detection, and climate
                                                                                                     satellite acquisitions. NOAA agreed with our recom-
              research vital to public safety. GOES-R is a multicon-
                                                                                                     mendations specific to its role in the acquisition,
              tract, multiyear program wholly funded by
                                                                                                     stating it is working with NASA on changes that will
              Commerce, though the new satellites will be devel-
                                                                                                     implement them. We recently received the
              oped and acquired with help from NASA Goddard
                                                                                                     Department’s response, which will be considered in
              Space Flight Center. Planning for the new series has
                                                                                                     developing our final conclusions and recommenda-
              been under way for the past 7 years. The
                                                                                                     tions regarding management of the GOES-R
              Department’s investment for GOES-R for fiscal years
                                                                                                     program.
              2008 to 2012 is projected to be about $2.4 billion.


                                                                                                     NPOESS Acquisition Restructured
                                                                                                     We described the troubled National Polar-orbiting
                                                                                                     Operational Environmental Satellite System
                                                                                                     (NPOESS) in our September 2006 Semiannual
                                                                                                     Report (page 29). This joint project of NOAA,
                                                                                                     NASA, and the Department of Defense will be a crit-
                                                                                                     ical element in the nation’s ability to provide
                                                                                                     continuous weather and environmental data for civil-
                                                                                                     ian and military needs through the coming 2 decades.
                                                                                                     In November 2005, Defense reported that NPOESS
                                              http://goes.gsfc.nasa.gov/text/goesimbroch.html
                                                                                                     costs had grown by 25 percent over original esti-
              This solar imager, which is carried on the GOES satellites currently
              in orbit, observes the sun’s X-ray emissions and allows early
                                                                                                     mates, largely because of problems developing a key
              detection of flares and other solar phenomena that may affect the                      sensor, the Visible/Infrared Imager Radiometer Suite
              Earth and its atmosphere. GOES-R will feature an enhanced solar                        (VIIRS). The 25 percent overrun triggered congres-
              imaging suite that permits even more varied and precise readings.                      sional recertification under the Nunn-McCurdy
                                                                                                     provision of the FY 1982 National Defense
              In acquiring GOES-R jointly with NASA, NOAA                                            Authorization Act. In June 2006, the House Science
              will have the lead management role for the first time,                                                             Committee accepted a
              giving the Department direct oversight authority for                                                               triagency proposal to con-
              both the ground and space segments. In June 2007,                                                                  tinue the program, but
              NOAA and NASA signed a memorandum of agree-                                                                        with four satellites instead
              ment defining their separate authorities and                                                                       of six, and with fewer sen-
              responsibilities for managing, developing, acquiring,                                                              sors. Total acquisition
              and integrating GOES-R. Because these are new roles                                                                costs were revised by
              for both the Department and NOAA, we evaluated                                                                     $5 billion.
              whether they have established effective mechanisms                                                http://eic.ipo.noaa.gov/
                                                                                                           IPOarchive/ED/graphics_kit/
                                                                                                                               This past July, the
              for handling their expanded responsibilities.                                                    NPOESS_teamLogo.jpg
                                                                                                                               NPOESS Program Office
              Our draft report, issued to the Department and                                         executed a $4.2 billion modification to the develop-
              NOAA in September, identifies a life-cycle process                                     ment and production contract after a year-long effort



                                                                                                11
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 12




              Major Challenges for the Department                                        September 2007—Semiannual Report to Congress



              to restructure the satellite program following recerti-        Over the past several years, OIG has conducted several
              fication. The revamped program calls for more                  reviews of the Department’s efforts to increase U.S. mar-
              rigorous management controls and oversight, and a              ket opportunities, provide assistance to U.S. exporters,
              more objective incentive payment plan for the con-             and overcome trade barriers in difficult foreign markets.
              tractor. It covers development, delivery, and launch of        A number of these reviews have also included evalua-
              two NPOESS satellites through 2016, and includes               tions of ITA’s process for reporting export success claims
              delivery of sensors to support the NPOESS                      resulting from its assistance to U.S. businesses. Our
              Preparatory Project, which is to be launched in 2009           findings have prompted ITA to strengthen its controls
              for the purpose of demonstrating and validating new            related to export success reporting.
              instruments, algorithms, and other capabilities. The
              last phase of development is now proceeding.
              Program executives have identified VIIRS and the               Interagency Trade Coordination
              Cross-track Infrared Sounder (CrIS) as the highest
              risk components.                                               In March 2007, OIG released a report reviewing var-
                                                                             ious aspects of Commerce’s trade promotion efforts
              We will continue to monitor cost, schedule, and                and the coordination of those efforts among various
              technical progress on both GOES-R and NPOESS                   offices within the Department and with other federal
              and report our findings in future semiannual reports.          and state trade agencies and other trade partners. We
                                                                             found effective collaboration on trade promotion in
                                                                             many instances, but we also identified areas where
                                                                             Commerce and other members of the federal inter-
              Challenge 7
              Promote U.S. Exports and
              Fair Competition in
              International Trade
              The Department of Commerce accomplishes its
              goals of promoting trade, opening overseas markets
              to American firms, and protecting U.S. industry
              from unfair trade practices primarily through the
              work of the International Trade Administration
              (ITA). ITA also works with USPTO and NIST to
              advise U.S. companies on intellectual property rights
              and standards issues.

              During this semiannual period, OIG decided to
              revise the title of the challenge facing the
              Department. Although Commerce has a primary role
              in enforcing U.S. antidumping and countervailing
              duty laws and countering foreign unfair trade prac-
              tices, greater emphasis and resources are focused on
              promoting U.S. exports and ensuring access to world                                                    Commerce Photographic Services
              markets for U.S. companies. Hence, we have modi-               Commerce Secretary Carlos M. Gutierrez announced the release of
              fied this challenge to better reflect the Department’s         the 2007 National Export Strategy and highlighted the need for
              and ITA’s responsibilities for promoting exports and           congressional action on the Peru, Colombia, Panama, and Korea
              reducing trade barriers.                                       Free Trade agreements at the 25th annual Washington Trade Gala
                                                                             in July.




                                                                        12
DOC OIG SAR 11-07.qxd   11/27/07    1:36 PM    Page 13




              September 2007—Semiannual Report to Congress                                         Major Challenges for the Department



              agency Trade Promotion Coordinating Committee                   activities. (See September 2006 Semiannual Report,
              could enhance their cooperation on specific activities,         pages 33-37.)
              such as trade finance assistance, Internet resources for
              exporters, and trade assistance at overseas posts that          CS and ITA each have 3 open recommendations out
              do not have a commercial officer. Many of the recom-            of a total of 20 in our 2006 review of CS operations
              mendations in that report require long-term efforts             in Argentina and Uruguay. The open recommenda-
              and/or interagency cooperation for completion, so               tions involve financial management improvements
              none of them has yet been fully implemented. (See               and effective coordination with the Department of
              March 2007 Semiannual Report, pages 37-40.)                     State’s partnership posts. (See September 2006
                                                                              Semiannual Report, pages 25-27.)
              During the course of working on the trade coordina-
              tion report, OIGs at several agencies raised issues             Finally, only 3 recommendations remain open of the
              about the process Commerce uses to prepare the                  35 originally made in our review of CS China,
              National Export Strategy and the involvement of other           although we recently received information indicating
              federal agencies in that effort. We reviewed the 2002           additional action may be required on one of the
              to 2006 National Export Strategy reports and found              closed recommendations. The open recommenda-
              that the annual report often outlines useful strategies         tions deal with the American Trading Center
              and initiatives—such as the promotion of public-pri-            initiative and an evaluation of language proficiency
              vate partnerships. The strategy does not, however,              requirements for CS officers assigned to China. (See
              establish consistent goals for promoting exports, align         March 2006 Semiannual Report, pages 23-26.)
              agency-specific strategic objectives with government-
              wide export promotion strategic goals, or measure               During the next semiannual period, we will continue
              progress toward meeting those goals. Nor is it a coor-          to monitor Commerce’s response to recommenda-
              dinated government-wide strategy, as envisioned by              tions made in our recent reports on CS operations at
              the Export Enhancement Act of 1992. The 2007                    Asian and South American posts and on trade coor-
              National Export Strategy report, released in June, con-         dination. Future OIG reviews may focus on the
              tained several improvements that are responsive to              Department’s efforts to oversee U.S. foreign trade
              our recommendations, but further action is warrant-             zones or to increase exports to countries that have
              ed. (See page 33.)                                              recently signed free trade agreements with the United
                                                                              States. We will also continue our periodic inspections
                                                                              of CS’ overseas posts, as mandated by the 1988
                                                                              Omnibus Trade and Competitiveness Act.
              U.S. Trade Promotion in Latin America
              and China
              During this semiannual period, we followed up on                Challenge 8
              recommendations made in our reports on
              Commercial Service (CS) operations in Brazil,                   Effectively Manage NOAA’s
              Argentina, Uruguay, and China. ITA and CS have
              made progress on many of the recommendations in
                                                                              Stewardship of Ocean and Living
              our CS Brazil review, and we have closed 18 of our              Marine Resources
              43 recommendations. Those that remain open
              include recommendations for improving coordina-                 NOAA spends billions of dollars each year support-
              tion with other embassy sections, clarifying export             ing a vast array of programs designed to protect and
              success reporting, and developing a strong marketing            enhance the resources in 3.5 million square miles of
              plan and financial management practices. In addi-               coastal and deep ocean waters and the Great Lakes.
              tion, we have closed the 2 recommendations made to              These programs require long-term commitments and
              USPTO but have kept open a recommendation to                    years of funding to show their full effect. And they
              NIST regarding coordination with CS on regional                 must operate in balance with the economic interests


                                                                         13
DOC OIG SAR 11-07.qxd     11/27/07       1:36 PM        Page 14




              Major Challenges for the Department                                                            September 2007—Semiannual Report to Congress



              of the nation: one of every six jobs is marine related                              waters offer safe breeding grounds for threatened
              and more than one-third of the gross national prod-                                 species and harbor underwater archeological sites.
              uct is generated by economic activity tied to                                       The program’s primary mission is resource protec-
              coastal areas.                                                                      tion, but it must also facilitate compatible public and
                                                                                                  commercial uses along with conservation and
              NOAA offers several financial assistance programs to                                research activities. The sanctuary program coordi-
              support the commercial fishing industry’s viability                                 nates its efforts with the U.S. Coast Guard,
              while working to reduce overfishing and rebuild                                     Environmental Protection Agency, Department of
              compromised fisheries. The Fisheries Finance Loan                                   the Interior, and a broad range of other federal, state,
              Program is one such initiative. Operated by the                                     local, and private partners. We are evaluating whether
              National Marine Fisheries Service, the program pro-                                 the program is meeting its core objectives, with a pri-
              vides direct loans to refinance or refurbish fishing                                mary focus on marine conservation and research.
              vessels, shoreside processing facilities, and aquacul-
              ture facilities. Program regulations and congressional                              The National Data Buoy Center manages four marine
              appropriation language restrict the program from                                    observation systems: weather buoys, coastal marine
              making loans for vessel construction or refurbishing                                observing stations, tsunami detection buoys, and cli-
              loans that increase a vessel’s fishing capacity. Since                              mate monitoring buoys. Weather forecasting depends
              1998, NMFS has made approximately 200 loans, for                                    on the reliability and accuracy of these systems. In
              a total of nearly $300 million. We are currently eval-                              addition, the Tropical Atmosphere and Ocean buoys
              uating the agency’s management of the loan program                                  and weather buoys with oceanographic sensors pro-
              to determine if it affects NOAA’s ability to help end                               vide climate data and information for researchers. We
              overfishing and rebuild fisheries. Also under way are                               are assessing the quality and availability of data gen-
              reviews of NOAA’s National Marine Sanctuary                                         erated by the observational buoys and coastal stations
              Program and the National Data Buoy Center’s ocean                                   and the center’s management of them. We anticipate
              observation system.                                                                 that the sanctuary and data buoy reviews will be com-
                                                                                                  pleted in December or early 2008.

                                                                                                  In planning for future OIG work on this challenge,
                                                                                                  we are considering reviews of NOAA’s offshore aqua-
                                                                                                  culture program, its coral reef program and coastal
                                                                                                  zone management, among other issues vital to the
                                                                                                  stewardship of ocean and living marine resources.



                                                                                                  Challenge 9
                                         Greg McFall/Grey’s Reef National Marine Sanctuary
                                                                                                  Aggressively Monitor Emergency
              Coral reefs are some of the most biologically rich and economically
              valuable ecosystems on Earth. They are found in five National                       Preparedness, Safety, and
              Marine Sanctuaries, such as Grey’s Reef (pictured above), off the
              coast of Georgia.                                                                   Security Responsibilities
              The sanctuary program manages and protects                                          The Department of Commerce has more than
              13 sanctuaries and a marine national monument in                                    35,000 employees and hundreds of facilities it
              northwestern Hawaii, which is the largest protected                                 must keep safe. As a cabinet-level Department, it also
              marine area in the world. The entire sanctuary system                               has a number of programs critical to national pre-
              encompasses 158,000 square miles of U.S. ocean and                                  paredness and recovery efforts, and it must support
              Great Lakes marine habitat that have conservation,                                  U.S. efforts to prepare for, respond to, and recover
              historical, or scientific importance—their protected                                from major disasters.


                                                                                             14
DOC OIG SAR 11-07.qxd     11/27/07      1:45 PM      Page 15




              September 2007—Semiannual Report to Congress                                                        Major Challenges for the Department



                                                                                            threats, and the broad range of public safety respon-
                                                                                            sibilities inherent in its mission.

                                                                                            Our in-progress review of NOAA’s ocean monitoring
                                                                                            system, mentioned previously, is an example of our
                                                                                            broader focus. Data buoys—the primary components
                                                                                            of the system—record a variety of critical marine
                                                                                            readings, such as wind and wave measurements and
                                                                                            air and sea temperatures, giving forecasters an addi-
                                                                                            tional tool for predicting and tracking hurricanes and
                                                                                            other potential weather emergencies. For the coming
                                                                                            year, we are also considering reviews of the
                                                                                            Department’s new identity/badging system, person-
                                                                                            nel security, and information document security.



                                                                                            Challenge 10
                                                                                            Enhance Export Controls for
                                                                                            Dual-Use Commodities
                                                           Homeland Security Council
              The National Continuity Implementation Plan provides                          Commerce’s Bureau of Industry and Security (BIS) is
              comprehensive guidance for maintaining essential operations                   responsible for the federal government’s export
              during emergencies.                                                           licensing and enforcement system for goods and tech-
                                                                                            nologies with both civilian and military uses. Because
              We continue to monitor Commerce’s progress in                                 of the importance of export controls to national secu-
              resolving weaknesses in emergency preparedness and                            rity, OIG has consistently devoted a great deal of time
              security. As of August 2007, the Department had                               and resources to challenges facing BIS.
              addressed virtually all outstanding recommendations
              from our 2002 and 2005 reviews of its preparedness                            For the past 8 years, OIG has been working to fulfill
              programs. But a dynamic security environment con-                             the requirements of the National Defense
              tinues to challenge the nation: Commerce, like all                            Authorization Act (NDAA) for FY 2000, as amend-
              federal agencies, must be vigilant in maintaining effec-                      ed, which directed the inspectors general of
              tive oversight of emergency plans and programs,                               Commerce, Defense, Energy, and State, in consulta-
              identifying and mitigating new security vulnerabili-                          tion with the directors of Central Intelligence and the
              ties, and protecting critical assets. It must be able to                      Federal Bureau of Investigation, to report to
              continue essential operations under all circumstances.                        Congress each year through 2007 on the adequacy of
                                                                                            current export controls and whether they are effec-
              In May 2007, President George W. Bush issued                                  tively preventing entities of concern from acquiring
              National Security Presidential Directive 51 (also                             sensitive U.S. technologies. The Department of
              known as Homeland Security Presidential Directive                             Homeland Security’s OIG has also participated in
              20) that updates long-standing continuity directives                          these reviews since that agency was formed. The group
              to ensure that governing entities are able to recover                         of OIGs is currently completing the eighth and final
              from operational disruptions, thus maintaining con-                           NDAA interagency review of export controls.
              tinuity of operations. We will keep a close watch on
              the Department’s efforts to comply with this direc-                           During this semiannual period, we continued to
              tive, as well as on its ongoing oversight of                                  monitor BIS’ progress in implementing NDAA rec-
              preparedness procedures, its response to emerging                             ommendations detailed in our March 2004


                                                                                       15
DOC OIG SAR 11-07.qxd   11/27/07     1:36 PM    Page 16




              Major Challenges for the Department                                       September 2007—Semiannual Report to Congress



                                             Semiannual Report (pages         We also followed up on our reviews of U.S. export
                                             14-17). For example,             controls for India and China. (See March 2007
                                             we have closely followed         Semiannual Report, page 19, and March 2006
                                             the activities and delib-        Semiannual Report, page 13.) In June 2007, BIS
                                             erations of the Deemed           implemented a final rule that clarifies U.S. policy on
                                             Export Advisory Com-             the export to China of items controlled for national
                                             mittee, which is review-         security reasons and implements new controls on
                                             ing BIS’ deemed export           exports of certain otherwise uncontrolled items when
                                             control policy and rele-         the exporter knows they are destined for a military
                                             vant recommendations             end use in China.
                                             made by this office.
                                       BIS
                                             Deemed export controls           Finally, although questions remain about the overall
                                             are designed to prevent          effectiveness of the Committee on Foreign
              the transfer within the United States of controlled             Investment in the United States (CFIUS) process, in
              U.S. technologies and technical information to for-             this year’s NDAA follow-up report we noted that
              eign nationals from countries or entities of concern.           both BIS and ITA are working toward implementing
              We look forward to the committee’s report by the end            our recommendations related to CFIUS activities
              of this calendar year and hope its findings and recom-          within Commerce. (See March 2007 Semiannual
              mendations will enable BIS to increase deemed                   Report, pages 23-25.) We believe these improvements
              export compliance rates, assist enforcement efforts,            will allow greater coordination and transparency in
              and ensure that the regulations have the intended               Commerce’s decision-making process. However, we
              effect of protecting national security interests without        continue to question whether CFIUS’ voluntary for-
              unnecessarily burdening exporters and the scientific            eign investment reporting process allows the
              community (see March 2004 Semiannual Report,                    Committee to receive timely information about all
              pages 14-17).                                                   acquisitions and mergers that pose potential security
                                                                              concerns, especially those involving small or
                                                                              medium-sized U.S. companies that manufacture or
                                                                              conduct research on sensitive U.S. technologies.




                                                                         16
